Pension Benefit Guaranty Corporation
     Office of Inspector General




        Trend Analysis Report
       PBGC Procurement Issues
       From 2000 through 2007



     RESTRICTED DISCLOSURE
       (Restricted portions have been redacted)




               July 26, 2007

                                                  2007-6/CA-0036
                      Pension Benefit Guaranty Corporation
                                                    Office of Inspector General
                                     1200 K Street, N.W., Washington, D.C. 20005-4026


                                                                               July 26, 2007


                              MEMORANDUM REPORT


TO:            Susan Taylor
               Procurement Director

FROM:          Luther Atkins
               Assistant Inspector General for Audit
SUBJECT:       Trend Analysis Report of PBGC Procurement Issues from
               2000 – 2007, OIG Report No. 2007-6/CA-0036



INTRODUCTION

Over the last several years the Government Accountability Office (GAO), the Contracts
Controls and Review Department (CCRD), and my office have issued a number of audit
and evaluation reports to the Procurement Department identifying improvements and
recommendations that are needed. From 2000 to 2007, PBGC’s contracting activity more
than doubled. In its FY2008 budget submission to OMB, the Corporation reported it
spends about two-thirds of its annual budget through contracts, and about two-thirds of its
“staff” is contractors. This trend and volume of expenditures makes contract management
a major challenge for PBGC. Therefore, since September 2004, my office has devoted a
significant portion of our resources to audits and reviews of PBGC’s procurement and
contracting activities.

This memorandum report summarizes and highlights those audit trends we have observed
over the years in the procurement and contracting area, and provides you a status of the
audit recommendations addressed to your Department. We will identify the major
problem areas found in these reports and the causes of these problems. We believe this
will be helpful to you in performing your duties as PBGC’s new Procurement Director.


RESULTS IN BRIEF

Since 2000, GAO, CCRD and our office have issued seventy-one (71) reports containing
one hundred (100) recommendations to improve PBGC’s procurement activities and
contractor oversight. We have closed 45 of these recommendations based on our review
Trend Analysis Report of PBGC Procurement Issues


of corrections actions that PBGC has taken. We are currently reviewing an additional 15
corrective actions that PBGC has taken to determine if those actions satisfy the original
recommendation. Therefore, there are about 40 recommendations that remain open and
need management’s attention. We believe implementing these recommendations will help
PBGC address this major management challenge and lead to improvements in
procurement and contracting operations.

Overall, three major areas were cited most often in these reports as needing
improvements:

      •   Questioned costs (unsupported and or unauthorized costs that contractors billed to
          PBGC);

      •   Lack of documented procurement policies, procedures, and directives; and

      •   Inadequate contractor oversight.

During this period, $12,023,051 in questioned cost have been identified and recommended
for recovery from contractors. Currently, $6,490,246.00 of the $12,023,051 remains open
while $5,532,805 has been closed. Two of the leading causes for questioned costs were
contractors: (1) Did not maintain adequate documentation to justify the costs they billed
PBGC, and (2) Hired employees who did not have the qualifications required under the
contract.

While conducting our review of internal procurement operations, we identified a number
of instances of undocumented procurement policies and procedures. Without documented
policy and procedures, there is no assurance that staff that perform procurement and
contract oversight have sufficient guidance and instructions to perform their duties. To
illustrate, the Performance Cycle report we issued in 2006 noted the Procurement
Department did not have policy or procedures to comprehensively document procurement
processes. 1 The current procedures do not adequately address all of the procurement
processes and do not assign responsibility for all contracting functions.

Finally, past audits have identified areas where PBGC staff who have contractor oversight
responsibilities (i.e., Contracting Officer’s technical representative (COTR), contracting
specialist, and contract monitor) need to provide more oversight of the contractors’
activities, performance and billings. Figure 1: Areas Needing Improvement, illustrates
audit findings that have been identified in three major reporting areas during the period.




1
    Procurement Cycle Performance Audit Report/2006-9/CA-0010



                                                        -2-
                                                                                     2007-6/CA-0036
Trend Analysis Report of PBGC Procurement Issues



                               Figure 1: Areas Needing Improvement

                                                                       Documented Policy and
                                    11%
                                                                       Directives


                                                                       Questioned Costs
                                31%
                                                58%

                                                                       Contractor Oversight




QUESTIONED COSTS

Over the past several years auditors have continually found the major cause of questioned
cost was the contractor’s inadequate documented support for the costs billed to PBGC.
(See Figure 2, Questioned Costs) For example, OIG and CCRD reports have found
unsupported cost resulted from the contractor’s failure to:

   •   Maintain contemporaneous time records to support employees daily work hours;

   •   Retain supporting documentation for labor hours employees worked; and

   •   Maintain documentation to support contractor billings in accordance with the
       Federal Acquisition Regulation (FAR).

To further illustrate, in a report we issued in January 2006, the audit objective was to
verify whether contractor amounts billed to PBGC were allowable, supported, and
consistent with the contractual provisions. The report identified $2,150,321 in questioned
costs related to the contactor’s failure to maintain support documentation for its
employee’s labor hours. The report also found that contractors did not reduce employees
work hours for non-work activities such as lunch. This is a major area of concern and
contracting officials must ensure contractors are properly monitored to ensure compliance
with FAR and the contract terms.
                                Figure 2: Questioned Costs


                               4%
                          8%                                Unsupported Costs

                    10%                                     Employee Qualifications

                                                            Overtime
                       15%
                                          63%
                                                            Over Compensaton Lunch

                                                            Improper Subcontractor Use




                                                      -3-
                                                                                               2007-6/CA-0036
Trend Analysis Report of PBGC Procurement Issues



Reports issued by OIG and CCRD identified $12,023,051.00 in questioned costs. The
Procurement Department has made management decisions on five (5) of the reports and
there are fourteen (14) reports that have open recommendations to recover questioned
costs, or demand that the contractors provide additional documentation. Figure 3: Report
with Management Decisions, shows the audit reports for which the Procurement
Department has made management decisions. The previous Procurement Director was
slow to act on our recommendations to recover questioned costs, thus a large balance of
questioned costs have yet to be addressed with the contractors. We believe a concerted
effort is needed to recover these costs if contractors cannot support them or if they are not
allowed under the contract terms. See Appendix II for a listing of open recommendations
on questioned costs.

       Figure 3: Reports with Management Decisions

          Contractor                       Questioned            Management
                                           Costs                 Decision
          CCRD Report No. 2002-
          2000                             $7,200                $2,025

          CCRD Report No. 2005-
          2001                             $106,433              $96,405

          CCRD Report No.
          01-MFAI-012                      $154,496              $48,656

          OIG Report No.
          2003/2005-13/CA-0009             * $652,402            $0


          OIG Report No.
          2004/2005-11/CA-0004             $10,414               $0
    *This Management Decision is still under review by OIG.

DOCUMENTED PROCUREMENT POLICIES AND PROCEDURES

We further found that the Procurement Department does not have sufficiently documented
procurement policy and procedures to guide contracting officials in performing their
duties and responsibilities. As shown in Figure 4: Documented Policy and Directives, our
trend analysis found that recommendations or suggestions were related to three areas for
example, a report we issued in September 2005, recommended that the Procurement
Department develop policies and procedures for PBGC’s procurement activities and
contracting officials duties. Then our 2006 Performance Cycle report noted:

   •   The Procurement Department’s procedures do not comprehensively address all
       aspects of the procurement process, and do not assign responsibility for all
       contracting functions.




                                                -4-
                                                                                     2007-6/CA-0036
Trend Analysis Report of PBGC Procurement Issues


   •   Large purchase contract files maintained by the Procurement Department, General
       Accounting Branch, and the COTR did not contain all the documentation PBGC
       directives, policies and procedures, and the FAR required.

   •   The final invoices COTR’s certified for payment were not labeled as “final.”
       Thus, this hindered contracting officials from efficiently administering contracts
       under their purview.

                     Figure 4: Documented Policy and Directives

                                9%                      Policy and Practices


                                       49%
                                                        Directives Not Developed
                          42%
                                                        Timekeeping




There are no comprehensive PBGC procurement directives or policy guidance available to
aid contracting officials and contractors to carryout their respective duties. Our audit
reports have continually indicated that contracting officials, including COTRs, and
contractors are not maintaining proper documentation needed to support billings, invoices,
and other procurement records. Without comprehensive contracting policies and
procedures, the contracting specialists and COTRs may not perform their duties in a
consistent manner, and ensure contractors abide by the terms of the contract and are
compensated according to the terms of their contract for work that is performed. See
Appendix III for a listing of open recommendations that address the need for documented
policy, procedures and directives.
We understand that you are committed to revise the Procurement directive and we believe
this will go a long way in addressing the need for up-to-date policies and procedures and
promote consistency within the Procurement Department.

CONTRACTOR OVERSIGHT

One of the root causes for problems with improper billings, unauthorized contractor
activities and practices is that PBGC is not providing effective oversight of its contractors.
Our trend analysis shows that a substantial number of reports found that PBGC needs to
strengthen its contractor oversight. The reports issued from 2000-2007, identified
significant procurement problems and control vulnerabilities, often stemming from a lack
of adequate monitoring of contractor performance. In Figure 5: Contractor Oversight, our
trend analysis revealed five major areas where more contractor oversight is needed.




                                                -5-
                                                                                      2007-6/CA-0036
Trend Analysis Report of PBGC Procurement Issues



                          Figure 5: Contractor Oversight
                    9%
                                                 Invoicing Errors Not Caught
               9%
                                    37%          Authorized Payment Over Ceiling


                                                 Lack of Training
         18%

                                                 Qualifications Not Addressed


                                                 Funds Used From Another Contract
                         27%



Not only did some reports note weaknesses in PBGC’s procurement process pertaining to
contract monitoring, they also noted invoice errors that PBGC oversight officials should
have caught or questioned. For example, in recent OIG audits we found:

    •   As much as 10 percent of the contractor’s employees did not have the educational
        requirements spelled out in the contract, yet this unauthorized process went
        unnoticed and unreported.

    •   A contracting official used $665,679 in funds from the current contract to pay
        invoices for another contract the contractor had with PBGC.

    •   Two occasions where a contracting official authorized invoice payments over the
        year’s ceiling. Had the contracting official adequately oversaw the contract,
        reviewed the contractors files more frequently, and maintained better records;
        these mistakes may not have occurred.

    •   Instances where the COTR does not appear to understand the relationship with the
        PBGC Contracting Officer.

Given the magnitude, complexity, and criticality of ongoing contract activity at PBGC, it
is imperative that individuals who oversee contractor performance are made fully aware of
their responsibilities, are adequately trained, and have the time needed to carryout their
duties. We believe a good first step is for you, as Contracting Officer, to clarify and
emphasize the legal and organizational relationship between you and the COTRs. (See
Appendix IV for a listing of open recommendations to address the need for contractor
oversight.)

We trust that the information presented will be useful to you as you address open audit
recommendations and re-focus PBGC’s procurement and contracting activities. We also
look forward to working with you and your office in addressing open audit
recommendations.




                                                  -6-
                                                                                    2007-6/CA-0036
Trend Analysis Report of PBGC Procurement Issues


                                                                        Appendix I
Objective, Scope and Methodology


OBJECTIVE, SCOPE AND METHODOLOGY

The purpose of this memorandum report is to summarize and highlight audit trends we have
observed over the years in the procurement and contracting area and to provide the recently
appointed Contracting Officer a status of the audit recommendations addressed to the
Procurement Department. Our review covered procurement related audit issues, findings, and
recommendations issued from 2000 to 2007. Specifically, to identify contracting and
procurement trends within PBGC we compiled a spreadsheet of audit issues, findings and
recommendations from reports issued by the Office of Inspector General (OIG) and the
Contracts and Controls Review Department (CCRD). In addition, we reviewed a report the
Government Accountability Office (GAO) issued in September 2000 finding PBGC contract
management needed improvement. All of this material is summarized in this report.

All reports were issued to PBGC’s executive director or management, and had recommendations
to the Procurement and Financial Operations Department. We consulted with CCRD and the
Procurement Department to verify the status of audit recommendations and all questioned costs
for which no management decision was made. For the status of GAO recommendations we
reviewed their website.

Our work was performed between February 2007 and June 2007 in accordance with government
auditing standards and included interviews with CCRD and PBGC procurement personnel. If
you have any questions, you may contact Henry Hopson on (202) 326-4030, ext. 3547.




                                             -7-
                                                                                2007-6/CA-0036
           Office of Inspector General – Office of Audit
Procurement Findings and Recommendations Fiscal Years 2002-2007
                         Questioned Cost
                                                                      Appendix II




     RESTRICTED DISCLOSURE




                              -8-                                 2007-6/CA-0036
           Office of Inspector General – Office of Audit
Procurement Findings and Recommendations Fiscal Years 2002-2007
            Lack of Documentation (PBGC/Contractor)
                                                                     Appendix III




     RESTRICTED DISCLOSURE




                              -9-                                 2007-6/CA-0036
           Office of Inspector General – Office of Audit
Procurement Findings and Recommendations Fiscal Years 2002-2007
               COTR Contract Monitor Performance
                                                                     Appendix IV




     RESTRICTED DISCLOSURE




                             - 10 -                               2007-6/CA-0036
